Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




The External Review of Hospital Quality

        The Role of Accreditation




                    JUNE GIBBS BROWN
                     Inspector General

                         JULY 1999
                       OEI-01-97-00051
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Boston regional office prepared this report under the direction of Mark R. Yessian, Ph.D.,
Regional Inspector General. Principal OEI staff included:

BOSTON                                                   HEADQUARTERS

Joyce M. Greenleaf, Project Leader                       Jennifer Antico, Program Specialist
Lynne G. Dugan, Senior Analyst                           Alan Levine, Program Specialist
Meredith A. Vey, Program Analyst




         To obtain copies of this report, please call the Boston Regional Office at 617/565-1050.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                          EXECUTIVE                     SUMMARY

PURPOSE

          To assess the role of Joint Commission accreditation in the external review of hospital
          quality.

BACKGROUND

External Quality Review of Hospitals in the Medicare Program

                  Hospitals routinely offer valuable services, but also are places where poor care can
          lead to unnecessary harm. The external quality review of hospitals plays an important role
          not only in protecting patients from such harm, but also in complementing the hospitals’
          own internal quality efforts. The Federal Government relies on two types of external
          review to ensure that hospitals meet the minimum requirements for participating in
          Medicare: accreditation, usually by the Joint Commission on Accreditation of Healthcare
          Organizations, and Medicare certification, by State agencies. About 80 percent of the
          6,200 hospitals that participate in Medicare are accredited by the Joint Commission.

This Inquiry

                  This report, part of a series of four companion reports that resulted from our
          inquiry, focuses on the Joint Commission because it dominates the hospital accreditation
          market. Our inquiry draws on aggregate data, file reviews, surveys, and observations
          from a rich variety of sources, including HCFA, the Joint Commission, State agencies, and
          other stakeholders.

                  We organize this report around a framework we developed for considering the
          external review of hospital quality. This framework consists of five components:
          announced, on-site surveys of hospitals; unannounced, on-site surveys of hospitals;
          responses to complaints concerning hospitals; responses to major adverse events in
          hospitals; and collection and dissemination of standardized performance measures.


FINDINGS

ANNOUNCED SURVEYS




Hospital Quality: The Role of Accreditation        1                                     OEI-01-97-00051
Joint Commission surveys are undertaken in a collegial manner and are tightly structured.
This approach fosters consistency but leaves little room for probing.

                  Surveys look the same hospital to hospital. Surveyors are well-versed in the Joint
          Commission standards and aim to educate the hospital staff about the significance and
          intent of those standards. To get an overview of the hospital, the surveyors maintain a
          rapid pace with survey sessions scheduled back-to-back, leaving little opportunity for
          following up leads or developing hunches.

Joint Commission surveys serve as a means of both reducing risk and fostering attention to
continuous quality improvement, but are unlikely to either surface substandard care or
identify individual practitioners whose judgement or skills to practice medicine are
questionable.

                  Hospitals take Joint Commission surveys seriously. The surveys prompt their
          attention to minimum protections that are important to patients and promote projects
          aimed at improvement. But surveyors lack much background information on the hospital
          that could help them hone their survey, thus they get a broad rather than in-depth view of
          the hospital. This, coupled with the tight structure, make it unlikely that the survey will
          identify patterns or instances of poor care.

While they matter enormously to hospitals, Joint Commission survey results fail to make
meaningful distinctions among hospitals.

                  Hospitals attach great significance to survey results and use them as a way of
          distinguishing themselves from other hospitals. However, the distinction between
          accreditation with commendation and accreditation with or without recommendations for
          improvement can be difficult to discern. In fact, little variation exists in accreditation
          levels and scores: 99 percent of the hospitals surveyed between May 1995 and June 1998
          clustered in just 2 of the 5 possible accreditation levels.

UNANNOUNCED SURVEYS

The Joint Commission’s reliance on unannounced surveys is limited.

                 The Joint Commission conducts 1-day, random unannounced surveys to ensure
          continued compliance with accreditation standards between triennial surveys. From June
          1995 through May 1998, it conducted such surveys, providing 24 to 48 hours notice, on
          about 5 percent of its accredited hospitals.

RESPONSES TO MAJOR ADVERSE EVENTS




Hospital Quality: The Role of Accreditation        2                                     OEI-01-97-00051
The Joint Commission treats major adverse events as opportunities for improvement.
Accordingly, it emphasizes education, prevention, and confidentiality but limits public
disclosure on the causes, consequences, and responses to such events.

                  The Joint Commission’s sentinel event policy stresses self-reporting and analysis
          on the part of the hospitals. Through this approach, it aims to develop a database of
          events that it can analyze for frequency and causes. But ensuring confidentiality to self-
          reporting hospitals limits public accountability. This presents particular difficulties if, as it
          often the case, local concern is heightened because of media reports on the events.

RESPONSES TO COMPLAINTS

The Joint Commission devotes little emphasis to complaints.

                  The Joint Commission’s accreditation process is not particularly geared to dealing
          with complaints. Although it receives complaints during surveys, surveyors must squeeze
          time from other survey activities to respond to them. The Joint Commission also receives
          and responds to complaints centrally.

STANDARDIZED PERFORMANCE DATA

Despite the Joint Commission’s early plans, standardized hospital performance data
remain of little value to external assessments of hospital quality.

                  In 1986, the Joint Commission unveiled its plans for a performance-based
          accreditation system that included uniform data from all hospitals. But as that vision
          unfolded, the Joint Commission faced resistance from hospitals. Accredited hospitals
          must now participate in a Joint Commission-approved measurement system (of which
          there are many), but collecting uniform data is as yet unrealized.


CONCLUSION

                  Unquestionably, the Joint Commission is the central force in the external review of
          hospital quality. It accredits about 80 percent of the hospitals in the country and, for
          Medicare purposes, it has a congressionally granted deeming status that is unique among
          accrediting bodies. Medicare beneficiaries and others who rely upon hospital services
          have much at stake in how and how well the Joint Commission does its job.

                  Our review underscores that the core element of the Joint Commission’s approach
          to accreditation is the announced, on-site survey of hospitals--a survey that is heavily
          oriented toward educational and performance improvement objectives. The other
          elements of external review--unannounced surveys, responses to complaints and serious

Hospital Quality: The Role of Accreditation           3                                       OEI-01-97-00051
          incidents, and standardized performance measures--play relatively minor roles in the Joint
          Commission’s accreditation process.

                  Given the significance of the Joint Commission’s role and its emphasis on one
          approach to external quality review, our inquiry surfaces important policy questions for
          HCFA: How can it best ensure an appropriate balance in external quality reviews of
          hospitals? How can it best hold the Joint Commission accountable for the important
          public role it performs while enabling it, at the same time, to have enough flexibility to
          continue to advance the state-of-the-art of hospital accreditation? We address these
          questions in our summary report, A Call for Greater Accountability. That report also
          contains our recommendations, which we direct to HCFA.


COMMENTS

                   Within the Department of Health and Human Services, we received comments
          from HCFA. We also solicited and received comments from the following external
          parties: Joint Commission on Accreditation of Healthcare Organizations, Association of
          Health Facility Survey Agencies, American Osteopathic Association, American
          Association of Retired Persons, Service Employees International Union, National Health
          Law Program, and Public Citizen’s Health Research Group. We include the detailed text
          of all of these comments and our responses to them in our summary report, The External
          Review of Hospital Quality: A Call for Greater Accountability (OEI-01-97-00050).




Hospital Quality: The Role of Accreditation         4                                     OEI-01-97-00051
                              TABLE OF CONTENTS

                                                                                                                PAGE

EXECUTIVE SUMMARY

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

FRAMEWORK FOR EXTERNAL QUALITY REVIEW OF HOSPITALS . . . . . . . . . . . 9


PROFILE OF ACCREDITATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


ANNOUNCED SURVEYS

          Approach: Collegial Tone and Tight Structure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          11

          Strengths: Dynamic Standards, Risk Reduction, Quality Improvement . . . . . . . . . . . . .                                       13

          Limitations: Unlikely to Uncover Substandard Care or Poor Performers . . . . . . . . . . .                                        15

          Scoring: Valued by Hospitals, But Scores Make Few Distinctions . . . . . . . . . . . . . . . .                                    18


UNANNOUNCED SURVEYS
    Limited Reliance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


RESPONSE TO MAJOR ADVERSE EVENTS

          Opportunities for System Improvement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

          Lack of Public Disclosure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25


RESPONSE TO COMPLAINTS

          Little Emphasis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26


STANDARDIZED PERFORMANCE DATA

          Currently of Little Value to External Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29


APPENDICES
A: Medicare Conditions of Participation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   30

B: Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        31

C: Sample Accreditation Survey Agenda . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     33

D: Advertising Accreditation Status . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               36

E: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   37




Hospital Quality: The Role of Accreditation                           5                                                    OEI-01-97-00051
                                       INTRODUCTION

PURPOSE

          To assess the role of the Joint Commission in the external review of hospital quality.

BACKGROUND

Hospital Safety

                  Hospitals are an integral part of our healthcare system, offering services that
          improve, extend, and even save lives. But they are also places where inappropriate care
          can lead to unnecessary harm. This reality was clearly underscored in 1991, when a
          Harvard medical practice study revealed the results of its review of about 30,000
          randomly selected records of patients hospitalized in New York State during 1984. The
          study found that 1 percent of the hospitalizations involved adverse events caused by
          negligence.1 On the basis of its sample, the study team estimated that during that year,
          negligent care provided in New York State hospitals was responsible for 27,179 injuries,
          including 6,895 deaths and 877 instances of “permanent and total disability.” Many other
          more recent studies have reinforced the concerns raised by the Harvard study. Of
          particular note was one that focused on the care received by 1,047 hospitalized patients in
          a large teaching hospital affiliated with a medical school. It found that 17.7 percent of
          these patients received inappropriate care resulting in a serious adverse event--ranging
          from temporary disability to death.2 In the public eye, these scholarly inquiries have been
          overshadowed by media reports that describe, often in graphic detail, the harm done to
          patients because of poor hospital care.3

                  Hospitals rely upon a variety of internal mechanisms, from physician credentialing,
          to peer review and benchmarking, in order to try to avoid such incidents and to improve
          the quality of care provided in their facilities. External quality review serves as a vital
          additional safeguard. It provides a more detached, independent mechanism for assessing
          the adequacy of hospital practices. Such oversight is of fundamental importance to
          patients and to the public and private entities that purchase health care services on their
          behalf. Protecting patient safety and improving the quality of patient care must be a top
          priority of external review.

Medicare’s Interest in External Hospital Quality Review

                  The Medicare program covers about 38 million elderly and disabled individuals,
          many of whom are high users of hospital care.4 In 1997, Medicare spent $136 billion on
          Part A, the hospital insurance benefit. This figure is just over half the total amount the

Hospital Quality: The Role of Accreditation        6                                     OEI-01-97-00051
          Federal Government spent on all Medicare benefits.5 In the same year, Medicare spent
          over $80 billion for inpatient acute hospital care alone.6

                  Since Medicare’s inception, external quality review has been a part of the
          Medicare program. When Congress enacted the Medicare Act in 1965, it required
          hospitals to meet certain minimum health and safety requirements to participate in the
          program.7 Those minimum requirements, called the Medicare conditions of participation,
          were published in 1966, revised in 1986, and are now being revised again (see appendix
          A).8 Within the Medicare Act itself, however, Congress provided that hospitals accredited
          by the Joint Commission on Accreditation of Healthcare Organizations were deemed to be
          in compliance with the conditions of participation. Congress also provided that hospitals
          accredited by the American Osteopathic Association could be considered in compliance,
          but only to the extent that the Secretary deemed appropriate.9 Thus, accreditation by the
          Joint Commission or the American Osteopathic Association provides entree into the
          Medicare program. About 80 percent of the 6,200 hospitals that participate in Medicare
          are accredited by the Joint Commission. Those hospitals wishing to participate in
          Medicare without accreditation must go through a Medicare certification process. The
          Health Care Financing Administration (HCFA) relies on State survey and certification
          agencies (hereafter called State agencies) to conduct certification surveys at these
          hospitals to determine compliance with the Medicare conditions. States currently certify
          1,442 nonaccredited hospitals nationwide.10

                  Regardless of the route a hospital takes to Medicare participation, Medicare bears
          a cost for the external review, either directly by funding State surveys or indirectly through
          hospital charges that include the overhead cost of periodic accreditation surveys.

The Nature of Accreditation

                 Accreditation is a form of self-regulation. It is a voluntary “conformity-
          assessment process” whereby industry experts define what standards organizations must
          meet in order to be accredited and then systematically review the organization’s
          performance against those standards.11 It typically aims to improve performance.12
          Organizations wishing to be accredited pay a fee for that service.13

This Inquiry and Report

                  This report examines the role of accreditation in external hospital quality review.
          It focuses on the Joint Commission on the Accreditation of Healthcare Organizations
          because it dominates the hospital accreditation market.14 In this report, we offer a
          framework for considering the external review of hospital quality and apply that
          framework to the Joint Commission’s approach to hospital accreditation.




Hospital Quality: The Role of Accreditation         7                                      OEI-01-97-00051
                  This report is part of a series of four companion reports that resulted from our
          inquiry. A second, The Role of Medicare Certification (OEI-01-97-00052), describes the
          extent and nature of the external review for nonaccredited hospitals. A third, Holding the
          Reviewers Accountable (OEI-01-97-00053), describes how HCFA oversees both the Joint
          Commission and the State agencies. The fourth report, A Call for Greater Accountability
          (OEI-01-97-00050), provides a summary of external hospital quality review and presents
          the recommendations emerging from our inquiry.

                   Our inquiry draws on a variety of sources. These include: data from HCFA’s
          Online Survey Certification and Reporting System; aggregate data from the Joint
          Commission concerning hospital survey activity; a mail survey to State agencies in the 50
          States and District of Columbia (hereafter referred to as a State); observations of seven
          routine hospital surveys conducted by the Joint Commission and one conducted by a State
          agency; observations of two separate complaint surveys conducted by a State Agency;
          reviews of accreditation manuals, policies, and hospital survey files from the Joint
          Commission; the systematic gathering of information from representatives of HCFA
          central and regional offices, State agencies, the Joint Commission, American Hospital
          Association, consumer groups, professional associations, and representatives of other
          organizations we considered to be stakeholders in hospital oversight; and reviews of laws,
          regulations, and articles from newspapers, journals, newsletters, and magazines. We also
          interviewed officials from the American Osteopathic Association and reviewed their
          accreditation materials. The American Osteopathic Association accredits about 100 to
          150 hospitals, some of which are also accredited by the Joint Commission. For purposes
          of this inquiry, however, we focused on the Joint Commission. See appendix A for more
          details on our methodology.

                 We conducted this inspection in accordance with the Quality Standards for
          Inspections issued by the President’s Council on Integrity and Efficiency.




Hospital Quality: The Role of Accreditation       8                                     OEI-01-97-00051
                      HOSPITAL REVIEW FRAMEWORK

                   The following five components present a framework for considering the external quality review
          of hospitals. They are intended to complement the internal quality assurance and improvement efforts
          that hospitals undertake themselves. They are approaches that health care purchasers, such as Medicare
          and Medicaid, can rely upon to ensure that their beneficiaries receive quality services from hospitals.
          They can also be of use to beneficiaries and other consumers concerned about the quality of their hospital
          care.

                   We present the components to facilitate analysis of the extent and type of external review that is
          desirable, whether carried out by accreditation bodies, certification agencies, Medicare Peer Review
          Organizations, HCFA, or others. Each component has strengths and limitations. Moreover, each can be
          used in support of a review philosophy based on continuous quality improvement, more traditional
          compliance enforcement, or some combination thereof.

                    We omitted a sixth component: the retrospective review of medical records to determine
          appropriateness of care. Formerly a role of the Medicare Peer Review Organizations, such medical record
          review is no longer carried out on such a large scale. However, some medical record review does occur as
          part of the components described below.

          1. Announced, On-Site Surveys of Hospitals
                   These involve some combination of observations of facility and equipment; reviews of medical
          credentials, and other records and documents; and interviews. They result in a pass/fail or some kind of
          score intended to distinguish level of performance. They can also involve follow-up to correct or improve.

          2. Unannounced, On-Site Surveys of Hospitals
                   The approach is basically the same as above except that the hospital has not had time to prepare.
          The intent is to gain a clear assessment of the facility as it typically functions and to trigger any necessary
          follow-up.

          3. Response to Complaints Concerning Hospitals
                   These involve complaints of a particular instance of care or more encompassing matters
          concerning a hospital’s performance. The response to complaints can range from a minimal distant
          review to a thorough on-site review. The process can trigger corrective actions and system improvements.

          4. Response to Major Adverse Events in Hospitals
                   These involve cases where substantial patient harm resulted from what may be poor performance
          on the part of the hospital and/or its practitioners. Here, too, the response can range from minimal to
          thorough and can trigger corrective actions and system improvements.

          5. Collection and Dissemination of Standardized Performance Measures
                   The aim here is to establish the standardized use of measures in ways that enable purchasers,
          consumers, accrediting bodies, and others to compare hospital performance. The comparisons can focus
          on a hospital’s own performance over time and/or on how its performance compares to other hospitals.
          The data can be drawn from surveys of patients or providers, billing claims, and the hospitals’ own
          records.




Hospital Quality: The Role of Accreditation                 9                                             OEI-01-97-00051
           PROFILE                             OF          ACCREDITATION

                 The table below summarizes our assessment of the Joint Commission’s approach
          to hospital accreditation, based on the framework we presented on the previous page.
          The remainder of the report follows this framework and elaborates on the five elements of
          the summary.


            Element                           Description                      Degree of Emphasis
 Routine, Announced, On-Site             Conducted every 3 years     Major. Core of existing accreditation process
 Surveys                                 to measure compliance
                                         with over 500 standards
                                         in 45 performance areas.

 Random, Unannounced, On-                Conducted on a sample       Minor. Affects about 5 percent of accredited
 Site Surveys                            of hospitals as a measure   hospitals per year.
                                         of continued compliance
                                         with standards in five
                                         performance areas.

 Responses to Complaints                 Includes tracking for       Minor. Few complaints result in on-site surveys;
                                         trends but also some        most are reviewed for trends. Limited attention to
                                         follow-up on-site,          complaints during triennial surveys.
                                         depending on the nature
                                         of the complaint.

 Responses to Major Adverse              Policy calls for hospital   Minor to Moderate. Emphasis has been growing.
 Events                                  self-reporting and
                                         determining cause of
                                         event. Focus is on
                                         identifying opportunities
                                         for improvement and
                                         education.

 Standardized Performance                Hospitals participate in    None. Performance data not linked to
 Data                                    one of many Joint           accreditation.
                                         Commission-approved
                                         indicator system and
                                         begin submitting data in
                                         1999.




Hospital Quality: The Role of Accreditation                   10                                         OEI-01-97-00051
                         ANNOUNCED                          SURVEYS

APPROACH

Joint Commission surveys are undertaken in a collegial manner.

                  Joint Commission surveyors are experienced nurses, physicians, and
          administrators. They are keenly aware of their roles as outside reviewers responsible for
          documenting compliance with Joint Commission standards. But they seek to carry out
          that role more as peer reviewers than as enforcers or regulators. In interacting with
          hospital staff, they strive to foster a collegial atmosphere characterized by a joint interest
          in improving hospital performance.

                   It follows, therefore, that surveyors view education as a central part of their
          mission. Well-versed in the Joint Commission standards, they tend to be ambassadors of
          those standards, helping hospital staff to understand their intent and significance. Beyond
          that, they also use the survey as a way of informing hospitals about promising approaches
          they have found at other hospitals, even providing the names of individuals to contact.
          For example, we observed surveyors informing hospital staff of alternate methods for
          monitoring crash carts and sharing other hospitals’ approaches to defining privilege lists
          and adverse drug reactions. We also observed a surveyor briefly chat with a patient and
          then scan his chart to identify how the hospital staff recorded the goals set for this patient.
          While the surveyor identified dietary, rehabilitation, and medical goals in the chart, the
          chart lacked documentation reflecting the patient’s own stated goal: to ride his
          motorcycle again. This led to some educational discussion between the surveyor and
          caregivers on reflecting goals not only for individual disciplines, but also in terms of the
          patients and their needs as individuals.

                   Given their collegial and educational orientation, surveyors tend to approach their
          information gathering in a nonchallenging manner. For example, they allow the hospital to
          select the majority of records to be reviewed.15 They tend to be accepting of information
          and answers provided by the hospital staff, with little probing to determine if surface
          appearances describe actual practice. They seldom reflect any wariness that hospital staff,
          in their eagerness to impress surveyors, may exaggerate points or omit information. For
          example, in one hospital, a surveyor scanned some performance data prominently
          displayed on a storyboard, questioned the cause of significant deviation in the charted
          data, but when staff failed to respond did not pursue the matter. In another, a surveyor
          noted with surprise that the hospital staff had failed to pull certain files he requested, but
          did not insist that the requested files be provided.




Hospital Quality: The Role of Accreditation         11                                       OEI-01-97-00051
Joint Commission surveys are tightly structured.

                  The Joint Commission uses a standard agenda in surveying hospitals. In 2 to 5
          days, depending on hospital size, surveyors conduct dozens of individually scheduled
          sessions that cover the major aspects of a hospital’s operations (see appendix B for a
          sample agenda). The survey pace is rapid, typically allowing 45 to 60 minutes for each
          meeting or patient care visit before moving on to the next visit.16 A few 15-minute
          intervals might be allotted each day as unscheduled for surveyors’ personal time or phone
          calls. Sessions are scheduled back to back.

                   The survey provides surveyors with a general overview of the hospital. It
          facilitates standardized assessments across facilities and protects against inconsistencies or
          the special interests of individual surveyors. Also, because the schedule, which hospitals
          receive in advance, spells out exactly which surveyor will be where over the course of the
          survey, individual departments can prepare by having everyone ready for the surveyor and
          the area cleaned and organized.17

                   The packed agenda, however, affords few opportunities for surveyors to develop
          hunches, follow leads, or even respond to complaints. Racing from session to session,
          surveyors have little time to probe deeply. As one surveyor described after surveying a
          700-bed hospital, “The team found this to be a harried, rushed survey due to the number
          of areas covered and the timeframe allowed...Patient units were cut short to allow for
          travel time between buildings...The time allotted for the building tour and medical record
          review was grossly inadequate.”18

                    The surveyors know little going in to a hospital that might help them probe more
          effectively. Their advance knowledge is limited to some basics on the services offered,
          last triennial survey results, and, in some cases, complaints and media articles. They know
          little, if anything, about the local health care market in which the hospital operates,
          including whether there are local labor shortages or union disputes. While such limited
          knowledge deliberately reduces bias and promotes consistency, it also hinders targeted
          probing and a deeper understanding of the hospital’s operations. For example, on the first
          day of a hospital survey, the local newspaper published a lead editorial about a heated
          battle between this hospital and another for dominance in children’s services. This
          competition was much on the minds of the hospital’s leadership, but the surveyors failed
          to ask about it because they were unaware of it. The surveyors were also unaware that
          the hospital had a random unannounced survey 18 months earlier.




Hospital Quality: The Role of Accreditation         12                                     OEI-01-97-00051
STRENGTHS

Joint Commission standards are dynamic.

                  The Joint Commission’s ability to quickly adapt the standards that form the
          foundation of the accreditation process enables it to respond to changes in health care
          delivery and evaluation methodology. The Joint Commission is constantly developing
          new, refining existing, and eliminating out-of-date standards. Practitioners, experts, and
          stakeholders from around the country weigh in on this process through the Joint
          Commission’s committee structure. That committee includes representatives from
          professional and industry groups, such as the American Medical Association, the National
          Association of Healthcare Quality, and the American Academy of Family Physicians, as
          well as from the Health Care Financing Administration. The stakeholders we surveyed
          considered ability to improve standards without a long regulatory process to be one of the
          greatest strengths of the accreditation process. Even a critic of the Joint Commission
          conceded that “the standards are wonderful. [One] can’t help but admire them.”

                  Over the past decade, the Joint Commission’s standards changed dramatically.19
          The new and revised standards reflect a more patient-centered focus, with greater
          emphasis on patient rights. The Joint Commission replaced old standards concerning
          committee meeting minutes with standards on strategic planning, resources for continuous
          quality improvement, and managing information. These changes were so substantial that,
          by 1996, the Joint Commission eliminated 80 percent of standards from its 1986 manual.20

Joint Commission surveys serve as a means of reducing risk.

                  At its core, the survey process is about reducing risk. The surveys prompt
          hospitals’ attention to minimum protections that are important to patients.21 Hospitals
          know that once every 3 years the surveyors will be onsite and they take the accreditation
          process seriously.22 They know the survey dates in advance and prepare for them. The
          survey process gives the hospital’s leadership a platform from which to rally attention to
          assessing its condition and correcting problems in time for the survey; hospitals want to
          put their best foot forward. For example, prior to surveys, hospitals put extra efforts in
          their appearance and make sure manuals are up-to-date. Many hospitals hire consultants
          to help them with this process by conducting mock surveys or reviewing existing
          conditions to identify areas falling short of accreditation standards. While some of these
          efforts are cosmetic, others extend beyond the cosmetic and include efforts such as
          training staff on standards.

                  Of course, the Joint Commission also has a platform from which it can promote
          particular patient-centered concerns by simply making them survey priorities. For
          example, over the past several years, the Joint Commission has identified hospital use of
          patient restraints as a such a priority.23 Indeed, surveyors found problems with restraints


Hospital Quality: The Role of Accreditation        13                                     OEI-01-97-00051
          at 55 percent of hospitals surveyed between June 1995 and May 1997.24 Hospitals were
          well aware of this focus--newsletters and Internet chat rooms devoted to accreditation
          surveys often feature survey trends--and responded through efforts such as improvement
          projects aimed at reducing restraint use.25 Other topics garnering attention from the Joint
          Commission recently include smoking in hospitals, conscious sedation, and emergency
          medicines.

                  In addition to focusing on priority areas such as restraints, the triennial surveys
          reinforce attention to other, basic protections that span administrative and clinical realms.
          For example, surveyors review hospitals for their fire safety procedures, including
          reviewing fire drill logs and checking firedoors and firewalls. They check the security and
          expiration of medicines and supplies. They look for infection control issues such as
          separation of clean and dirty. They check how hospitals record drug allergies and monitor
          adverse drug reactions. They review the timely inclusion of histories and physicals in the
          medical records. They verify the existence and staff knowledge of hospital policies. For
          example, at one hospital, we observed the nurse surveyor review policies and minutes of
          the ethics committee. He then verified that nurses on patient care units used the
          committee appropriately by asking about their most recent referrals to it.

Joint Commission surveys foster attention to continuous quality improvement.

                  Consistent with its mission to “improve the quality of care provided to the public
          through...performance improvement in health care organizations,” the Joint Commission
          promotes the use of continuous quality improvement through the measurement of
          performance based-standards.26 Continuous quality improvement has been a major trend
          in health care over the past decade, and the Joint Commission adopted its focus on
          measurement and outcomes through its Agenda for Change.27 In fact, 88 percent of the
          stakeholders we interviewed expect
          accreditation to play a great or very
          great role in fostering continuous          Fostering An Understanding of Measurement
          quality improvement in hospitals.
                                                    While surveying a unit serving the frail elderly,
                                                    a nurse surveyor engaged staff in a discussion
                  Attention to continuous           about identifying and measuring patient
          quality improvement pervades the          outcomes. Through careful questioning, he led
          entire hospital survey process. The       the staff to understand the difference between the
          performance improvement overview          process of care (in this case, a moist healing
          session, one of the first sessions of     environment for a pressure ulcer) and the
          the survey, provides an opportunity       outcome of care (a smaller and, eventually,
          for hospital staff to present their       healed ulcer). He also helped the staff
          performance improvement                   understand the importance of measuring the
          methodology, to which surveyors           impact of the staff’s interventions on patient
          refer throughout the survey.              outcomes.




Hospital Quality: The Role of Accreditation        14                                       OEI-01-97-00051
Surveyors reinforce the importance of quality improvement in sessions with hospital leaders and
medical staff, where they confirm leadership involvement and ask how projects are identified and
prioritized. The survey agenda also reserves specific sessions for performance improvement
teams to showcase their most successful projects for surveyors. The performance improvement
projects presented may involve topics such as reducing patient waiting times, improving the
timeliness of medical record retrieval, reducing medication errors, and reducing the use of patient
restraints. As the surveyors move throughout the hospital, staff are eager to explain the
performance improvement storyboards on display in their units. And surveyors often ask staff
what their units are doing better this year than last and what they will do better next year.

                  Depending on the hospitals’ sophistication in performance improvement, surveyors
          act as either educators, sharing advice and encouragement on measuring outcomes, or as
          cheerleaders, applauding the hospitals’ performance improvement efforts. Some hospitals
          have moved beyond Joint Commission requirements, hiring consultants to help them with
          their performance improvement efforts, sending medical staff to training on these
          techniques, or paying medical staff for time spent on performance improvement projects.
          In hospitals with sophisticated performance improvement projects, surveyors offer
          compliments and collect ideas to pass on to other hospitals.

LIMITATIONS

Joint Commission surveys are unlikely to surface patterns, systems, or incidents
of substandard care.

                  Looking for questionable care runs counter to the tight structure and collegial
          nature of the Joint Commission’s survey process. That process leaves little opportunity
          for identifying such patterns, systems, or incidents. It is more oriented toward reducing
          risks, improving performance, and educating.

                  The Joint Commission’s approach to medical record review illustrates its limits.
          While surveyors review both closed and open medical records during surveys, their focus
          is more on processes of care than appropriateness of care. In fact, surveyors “do not
          judge directly whether the care given to a specific patient is good or bad, right or
          wrong.”28 Nor do they choose medical records based on indications of poor quality.
          Rather, the hospitals generally choose the records for surveyors, and, in some cases,
          hospital staff also conduct the review. While Joint Commission surveyors find problems-­
          even patterns--through medical record review, they tend to be related to processes, such
          as documenting verbal orders, timely recording of the history and physical, and assessing
          patients’ educational needs. While important, these process issues are apparent through
          even a quick review of the records. The Joint Commission’s approach is unlikely to reveal
          problems or patterns that might take a more thorough examination to uncover, such as
          inappropriate surgeries, high complication rates, or poor or unexpected outcomes.



Hospital Quality: The Role of Accreditation       15                                     OEI-01-97-00051
                  The Joint Commission survey process falls short of identifying patterns or systemic
          weaknesses because, at least in part, surveyors lack the time or the up-front knowledge
          that would help them dig deeper. They get a broad rather than in-depth view of the
          hospitals’ operations. Thus, the survey would be more apt to reveal unsecured narcotics
          or outdated drugs than it would a pattern of mismedication. It would be more apt to
          reveal lapses in fire drills than lapses in continuity of care. It would be more apt to reveal
          overdue staff evaluations than staff performing tasks for which they are untrained.

                  Indeed, the survey process may not reveal any problems when in fact systemic
          problems exist. For example, in the Spring of 1996, the Joint Commission awarded one
          hospital its highest level of accreditation: accreditation with commendation. That Fall,
          the hospital experienced an unexpected death, triggering the State agency to investigate.
          In the spring of 1997, more unexpected deaths occurred, and the agency returned. After a
          3-week investigation, that agency found systemic problems in both quality assurance and
          medical staffing.29 While no system of oversight is foolproof, the Joint Commission
          survey process failed to uncover what the State agency identified as deep-rooted
          problems.

                  Joint Commission surveyors have limited information from which to draw to help
          them identify patterns or incidents. For example, surveyor preparation packets lack
          practice pattern or performance data that could provide surveyors with insights into
          identifying patterns of questionable care. In fact, the surveyors have virtually no
          interactions or information from other stakeholders, such as Medicare Peer Review
          Organizations or consumer groups, who might have insights into the hospitals’
          performance.

Joint Commission surveys are unlikely to identify individual practitioners whose
judgment or skills to practice medicine are questionable.

                  The collegial process, tight structure, limited time, approach to medical records,
          and lack of background information all make it unlikely that the survey process will
          identify individual practitioners who pose risks to their patients. In fact, the Joint
          Commission’s own publications note that the accreditation process does “not evaluate the
          quality of care provided by individual medical staff members” and “does not provide a
          warranty that a particular individual will receive quality care in a specific health care
          setting at a particular time.”30

                  A standard part of an accreditation survey is a review of hospitals’ own processes
          in ensuring the competence of their practitioners. But that review of credentialing and
          privileging offers, at best, a preliminary and superficial assessment. It generally lasts 45 to
          60 minutes, during which the surveyor both interviews the medical staff leadership and
          reviews files (in some cases, the hospital staff also reviews files).



Hospital Quality: The Role of Accreditation         16                                      OEI-01-97-00051
                  While the hospitals generally choose the files for review in the credentials session,
          they do so at the direction of the surveyors, ensuring different privileges (active, courtesy,
          consulting, and temporary, for example) and specialties are represented. But time is too
          short for any in-depth review of these files. For example, in one hospital with over 500
          active staff, the surveyor reviewed three practitioners’ credentials and privileges. Even
          though he found a problem with one of the three (a podiatrist who was performing surgery
          for which he was not privileged), the surveyor reviewed no additional files.

                  The credentials session falls short in other ways, as well. While the surveyors do
          ask important questions about the hospitals’ processes for matching privileges to
          competencies and verifying licenses, we observed no surveyor ask how the hospital
          identified or dealt with physicians whose knowledge or practice skills were marginal.31
          Even though Federal law requires hospitals to report any practitioner they have disciplined
          to the National Practitioner Data Bank, it is unlikely that surveyors will make any
          determination about hospitals’ compliance with that law: Joint Commission standards do
          not currently reference the law for reporting to the Data Bank, and the likelihood is low
          that surveyors will choose a file of a disciplined physician randomly.32 In fact, one
          physician surveyor chastised the staff for pulling confidential physician files for the
          surveyor to review. Such files contain peer review assessments and other details on the
          physicians’ skills.

                   The collegiality of the sessions hinders raising sensitive topics, such as physicians’
          fitness to practice, in a meaningful way. For example, during the review of credentials,
          one physician surveyor shared a story about a hospital that was about to reduce privileges
          of an older surgeon whose skills had declined. The surgeon had practiced at the hospital
          for many years and was a stalwart of the hospital community and respected throughout the
          State. Before the hospital could act, the State legislature named the surgeon “Physician of
          the Year.” The story was met with nervous laughter by the medical staff. While the story
          touches on the difficulties of dealing with those whose skills are declining, the surveyor
          followed up with neither questions of whether the hospital was faced with anything similar
          nor education about how to deal with such situations.

                  Other survey sessions offer some insights into the practitioners skills, but only
          peripherally. For example, the document review session provides an opportunity for
          surveyors to review any minutes or records that might document some problems with
          individuals, though whether the surveyors would have the time to identify those
          documents amidst the hundreds they scan is uncertain at best. The surveys also include
          interview sessions with nursing and medical leadership. But the high attendance and
          collegial atmosphere at these sessions is generally counter to discussing individuals.




Hospital Quality: The Role of Accreditation         17                                      OEI-01-97-00051
SCORING

Joint Commission survey results matter enormously to hospitals.

                  Hospitals attach great significance to accreditation scores and status. They know
          the accreditation scores of competing hospitals, and aim to beat them with higher scores
          of their own. It is not enough to simply be accredited--nearly every hospital surveyed gets
          accredited--they want to be accredited with commendation, the highest level awarded by
          the Joint Commission. After all, hospitals operate in an increasingly competitive
          marketplace, where edging out the competition in gaining contracts with managed care
          plans and other purchasers can be the difference between surviving and going out of
          business. They know that their survey results will be available to the public.33 Thus,
          hospitals that do achieve accreditation with commendation promote their survey results
          (see appendix D).34 They advertise their status in banners hung outside their hospitals.
          They announce it in full-page ads in their local papers. They post it on their websites and
          throughout the hospital.

                  This focus on the survey scores permeates the survey process, introducing some
          tension into the otherwise collegial process. Surveyors know hospitals aim to do well on
          their surveys--after all, the hospital leadership often follows them around during the entire
          survey process. Hospitals often hire consultants to help them prepare and increase the
          likelihood they will achieve accreditation with commendation. Surveyors and hospitals
          alike know that just one deficiency can thwart accreditation with commendation. This can
          lead to pressure to mitigate the impact of deficiencies, which can play out in a couple of
          ways. One approach, for example, involves what we have dubbed the denominator game:
          increasing the numbers of documents reviewed (the denominator) in order to decrease the
          significance of problems identified in any one record (the numerator).35 We observed
          hospitals attempting to mitigate findings on restraints, dental histories in the medical
          record, and security of drugs with this approach, with varied success. Surveyors, of
          course, also have some flexibility in scoring the standards. For example, we observed one
          surveyor identify a problem with a podiatrist performing surgery that exceeded his
          privileges. The surveyor scored this as a documentation rather than medical staff problem,
          thereby mitigating its impact on the final score.




Hospital Quality: The Role of Accreditation        18                                     OEI-01-97-00051
Joint Commission survey results fail to make meaningful distinctions among
hospitals.

                  Even though the Joint
          Commission has 5 levels of                                    Table 1
                                                     Accreditation Levels for Hospitals Surveyed
          accreditation, 99 percent of                            June 1995 - May 1998
          the hospitals surveyed
                                                    Accreditation           6/95      6/96     6/97
          between May 1995 and June
                                                         Level               to         to       to     Total
          1998 clustered in just 2 of                                       5/96      5/97     5/98
          those levels (see table 1):
          accreditation with                  Accreditation with
                                              Commendation                  13%       18%      15%       16%
          commendation (16 percent)
          and accreditation with type 1       Accreditation without
                                              Type 1 Recommendations        <1%        1%        0       <1%
          recommendations (83
          percent).36 The difference          Accreditation with Type 1
          between some levels of              Recommendations               86%       80%      83%       83%
          accreditation can be difficult      Conditional Accreditation     <1%        1%       1%       1%
          to discern. For example,
                                              Preliminary Non-
          hospitals accredited without        Accreditation                   0         0      <1%       <1%
          recommendations for               Source: Joint Commission on the Accreditation of Healthcare

          improvement may miss the          Organizations.

          commendation status by a          Note: n=17130 for 6/95-5/96 , n=1709 for 6/96-5/97, and n=1719

                                            for 6/97-5/98.

          narrow margin. On the other
          hand, accreditation with
          recommendations for improvement (type 1 recommendations) is a broad category that
          encompasses hospitals with just one recommendation to hospitals having many.37

                  In addition to the accreditation level, hospitals accredited by the Joint Commission
          receive a score based on a 100-point scale. Fully 99 percent of hospitals accredited in
          1997 received scores over 80: 73 percent received scores of 90 or higher and 26 percent,
          from 80 to 89. Just 1 percent received from 70 to 79.38 Given the Joint Commission’s
          own interpretation of scores, this spread implies few “real differences” across accredited
          hospitals:

                     The smaller the difference in scores between hospitals, the less likely there is an actual
                     difference in the levels of performance between them. There may not be a real difference
                     between a hospital that scores 88 and a hospital that scores 81. However, the greater the
                     difference in scores, the more likely there is a difference in patient care.39

                  On at least one occasion, the Joint Commission has found its own survey too blunt
          a tool to clearly distinguish a hospital as unacceptable. In this case, two State agencies,
          HCFA, and the Joint Commission were engaged in surveying and resurveying a hospital.
          Concerns about this hospital ranged, for example, from rat infestations to the hospital
          taking away a patient’s mattress and bedframe, to improper patient restraints. Yet it was

Hospital Quality: The Role of Accreditation              19                                        OEI-01-97-00051
          not until the Joint Commission devised a special survey that the hospital failed to achieve
          accreditation.




Hospital Quality: The Role of Accreditation        20                                     OEI-01-97-00051
                     UNANNOUNCED SURVEYS

The Joint Commission’s reliance on unannounced surveys is limited.

                 The Joint Commission uses random unannounced surveys as a way to ensure
          continued compliance with accreditation standards between triennial surveys.40 From June
          1995 through May 1998, the Joint Commission conducted 250 random unannounced
          surveys, representing about 5 percent of its accredited hospitals. Eleven percent of those
          surveys (28) resulted in a change in the hospitals’ accreditation status. The Joint
          Commission required some corrective follow-up (a written progress report or a focused
          survey) for about a third (80, or 32 percent).

                  The Joint Commission does, in fact, give advance notice of its “unannounced”
          surveys. But unlike the triennial surveys, which are scheduled several months in advance,
          the Joint Commission provides considerably less notice to hospitals undergoing these
          random surveys: generally 24 to 48 hours. By contrast, the New York State Health
          Department recently sent 72 inspectors to 12 hospitals without any warning at all. The
          inspectors arrived at the hospitals on a Thursday afternoon and spent the weekend
          investigating the hospitals’ supervision of residents.41 State agencies, in conjunction with
          the Health Care Financing Administration, often give no warning to hospitals prior to
          showing up to investigate a complaint or incident of patient harm.42 In fact, in the case of
          nursing homes, Federal law allows a fine of up to $2,000 for anyone warning the facility of
          an upcoming survey.43 Some hospitals appear to recognize some intrinsic value to the
          surprise of an unannounced evaluation, as they themselves hire people to pose as patients
          and then report on their experience.44 The Joint Commission has not used that approach.

                  The focus of random unannounced surveys is narrower than the triennial surveys.
          Rather than encompassing all hospital accreditation standards, they focus on the top five
          performance areas that the Joint Commission finds out of compliance. Because of the
          narrower focus, one surveyor conducts the random unannounced and the entire survey
          takes 1 day. The one random unannounced survey we observed began at 8:30 in the
          morning and ended at 3:15 in the afternoon. The Joint Commission notified that hospital
          24 hours before the surveyor, an administrator, arrived at the hospital. The survey
          resembled the triennial survey in approach. For example, the surveyor conducted the
          survey in the same collegial manner as in a triennial; he often focused on educating the
          hospital staff on particular standards and their intent. His advance knowledge of the
          hospital was limited to a copy of the notice to the hospital’s executive explaining the focus
          of the survey and a sheet describing some basic information about the hospital and its
          services. He displayed little skepticism. In fact, during one 5-minute interview of the
          human resources staff, the surveyor proclaimed their answers to be “textbook perfect,”
          thereby negating his need to review any of the files they had pulled for him.


Hospital Quality: The Role of Accreditation        21                                     OEI-01-97-00051
        Responses to Major Adverse Events

The Joint Commission’s approach to major adverse events has evolved to one
that addresses such events as opportunities for system improvement. It is in
accord with recently developed precepts on reducing errors in medicine.

                  In recent years, as the media have reported many events involving serious harm to
          hospitalized patients, the Joint Commission has devoted more attention to them under the
          rubric of its “sentinel event” policy.45
          When it first established this policy in
          April 1996, it assessed the hospital’s           The Joint Commission’s Definition of a
          responsibility for them through an on-                         Sentinel Event
          site investigation.46 If the Joint
          Commission found that the incident         “(1) The event has resulted in an unanticipated death
          was, indeed, serious, and that the         or major permanent loss of function, not related to
                                                     the natural course of the patient’s illness or
          hospital could reasonably have been        underlying condition, or (2) The event is one of the
          expected to prevent it, then the Joint     following (even if the outcome was not death or
          Commission typically downgraded            major permanent loss of function): Suicide of a
          the hospital’s accreditation to            patient in a setting where the patient receives
          “conditional”--a publicly disclosed        around-the-clock care (e.g., hospital residential
                                                     treatment center, crisis stabilization center); Infant
          status that called for the hospital to
                                                     abduction or discharge to the wrong family; rape;
          determine the cause of the event.47        Hemolytic transfusion reaction involving
                                                       administration of blood or blood products having
                  Since then, the Joint               major blood group incompatibilities; or Surgery on
          Commission’s sentinel event policy          the wrong patient or wrong body part.”
          has evolved to one that is gentler to
          hospitals. Its first important move in
          this direction was in October 1996 when it replaced the downgrade to conditional
          accreditation, which hospitals regarded as unnecessarily punitive, with a status called
          “Accreditation Watch”-- a publicly discloseable status but one that in itself did not affect a
          hospital’s existing accreditation status. More significantly, in April 1998, the Joint
          Commission recast its overall approach toward such events to one that is much more
          analytic than investigative. This altered approach builds on the premise that medical errors
          occur regularly, even in the best hospitals. It seeks continuous quality improvement in
          health care by treating errors as opportunities to improve systems of care rather than to
          find and punish culpable individuals or institutions. Toward this end, it aims to create a
          protected venue where it is safe to acknowledge errors and where practitioners and
          administrators analyze them to develop better error-prevention strategies--ones that get at
          the causes for errors.48




Hospital Quality: The Role of Accreditation          22                                        OEI-01-97-00051
                  Thus, the Joint Commission’s current policy on major adverse events stresses
          voluntary and timely self-reporting both of the incidents and of the hospitals’ analyses of
          them.49 Hospitals that proceed in this way avoid Accreditation Watch and are much less
          likely to be subject to an on-site investigation of an incident. Through this approach, the
          Joint Commission expects to develop a substantial database of events that it can analyze
          for patterns of frequency and causes.50 It intends to communicate this information to
          accredited hospitals so that they can prevent such events.

                  It is still early to fully assess the effects of this new approach. But the initial
          indications suggest that this gentler, educationally oriented approach is beginning to take
          hold. From April 1, 1998 (when the policy was implemented) until January 7, 1999 (the
          latest date for which data are available), the Joint Commission has been less inclined to
          place hospitals on Accreditation Watch or to change their accreditation status as a result
          of an adverse event, and hospitals have been more inclined to self-report sentinel events to
          the Commission (see table 2).51




Hospital Quality: The Role of Accreditation        23                                     OEI-01-97-00051
                                                                   Table 2
                                                         Sentinel Event Tally
                                                   Sentinel Events in the Database

                                 Total Number of Events Added to the

                                 Joint Commission Database between

                                 4/1/96 and 1/7/99 . . . . . . . . . . . . . . . . . . . . . . . . . . . 374


                                              Number Self-reported

                                              4/1/96 - 3/31/98 . . . . . . . . . . . . . . . . . . . . . .   36


                                              Number Self-reported since

                                              the New Policy (4/1/98 and 1/7/99) . . . . . . . 115



                                                 Hospitals on Accreditation Watch

                                 Total Number of Hospitals Placed on 

                                 Accreditation Watch 10/1/96 - 1/7/99 . . . . . . . . . . . . . 38


                                              Number 10/1/96 - 3/31/98 . . . . . . . . . . . . . . . 35


                                              Number since the New Policy 

                                              (4/1/98 and 1/7/99) . . . . . . . . . . . . . . . . . . . . . 3



                                       Hospitals with an Accreditation Status Change

                                 Total Number of Hospitals with a Change in

                                 Accreditation Status Due to Sentinel Event 

                                 Review between 10/1/96 and 1/7/99 . . . . . . . . . . . . . . 149


                                              Number 10/1/96 - 3/31/98 . . . . . . . . . . . . . . 146


                                              Number since the New Policy 

                                              (4/1/98 and 1/7/99) . . . . . . . . . . . . . . . . . . . . . 3


                               Source: Joint Commission on the Accreditation of Healthcare
                               Organizations.




Hospital Quality: The Role of Accreditation                            24                                          OEI-01-97-00051
The Joint Commission’s approach emphasizes confidentiality, thereby inhibiting
public disclosure on the causes, consequences, and responses to major adverse
events.

                  For hospitals complying with the Joint Commission’s self-reporting format, the
          Joint Commission does not publicly release any information, nor upon inquiry of a
          hospital’s accreditation status does it identify that any analysis is underway. If the inquirer
          specifically mentions the adverse event, the Joint Commission simply indicates that it is
          working with the hospital on it. But even with this restrictive approach, hospitals have
          been wary of the self-reporting policy as they fear that the confidentiality of the Joint
          Commission’s database would not be adequately protected under State and Federal laws
          and that as a result they would be exposed to malpractice liability.52 The Joint
          Commission has been examining legislative remedies, at State and Federal levels, to
          address this concern and to buttress its limited disclosure policy.

                   This emphasis on the confidentiality of adverse event related information may
          facilitate the quality improvement agenda of the Joint Commission, but it is at the expense
          of its public accountability. It leaves the general public with minimal information about
          how an incident happened and what if anything is being done to prevent more. This
          presents particular difficulties if media reports of the incident heighten local concern. In
          such cases, the public is likely to be looking for assurances from an objective outside party
          that any problems at the hospital have been addressed and that patient safety is maintained.
          Under its current policy, the Joint Commission can offer few specifics to support any such
          assurances.53 The results of investigations conducted by State agencies or HCFA itself are
          likely to be more available to the public.




Hospital Quality: The Role of Accreditation         25                                      OEI-01-97-00051
           RESPONSES                           TO         COMPLAINTS

The Joint Commission devotes little emphasis to complaints.

                  The Joint Commission’s accreditation process addresses complaints more
          tangentially than centrally. Although it receives and responds to complaints during
          triennial surveys, the limited time surveyors devote to complaints is squeezed from other
          survey activities in an already-packed agenda. And while the Joint Commission requires
          hospitals to inform the public about upcoming surveys 30 days in advance with notices
          that explain how to register complaints, it has no standing requirement for hospitals to
          post such notices continuously.54

                  The rate of complaints the Joint Commission received through its triennial survey
          process (referred to as public information interviews) remained flat from 1996 to 1997:
          surveyors conducted 111 such interviews in 1996 and 103 in 1997, involving about 6
          percent of surveys in each year.55 Thirteen percent of the public information interviews
          resulted in areas identified for improvement (i.e., type 1 recommendations). Historically,
          such public information interviews took place with both surveyors and hospital
          representatives present, which likely had a chilling effect on staff wishing to complain.
          But in 1997, the Joint Commission changed its policy to allow confidential opportunities
          for public information interviews. It remains to be seen how this revised policy will affect
          the complaints received over time.56

                   The Joint Commission also receives complaints in its central office, which it tracks
          for trends or sends to surveyors for review during triennial surveys.57 In March of 1999, it
          implemented a new toll-free complaint hotline.58 When a complaint or incident such as an
          unexpected death alerts the Joint Commission of a possibly grave threat to patient care or
          safety in an accredited hospital, it conducts either an unannounced or unscheduled survey
          (these differ from the random unannounced surveys discussed previously). During the 3-
          year period from June 1995 through May 1998, the Joint Commission conducted these
          surveys in about 6 percent of accredited hospitals (172 unannounced and 136 unscheduled
          surveys). While hospitals do not receive prior notice of an unscheduled survey, the Joint
          Commission gives 24 to 48 hours notice before an unannounced survey. Both types can
          result in changes in accreditation status and areas requiring follow-up.59

                  Sometimes, the Joint Commission, HCFA, and/or the States agencies receive the
          same complaints. While some sharing of complaint information occurs, officials from
          State agencies, HCFA, and the Joint Commission all expressed some concern about the
          consistency of that sharing. Some also expressed concerns about the lack of coordination
          in following up on complaints.



Hospital Quality: The Role of Accreditation        26                                     OEI-01-97-00051
      Standardized                              Performance                            Data


Despite the Joint Commission’s early plans to incorporate standardized hospital
performance data into accreditation, it remains of little value to external
assessments of hospital quality.

                   In 1986, the Joint Commission unveiled its “Agenda for Change,” a vision for a
          performance-based accreditation system that included clinical indicators. It envisioned a
          system where data based on such indicators would enhance the accreditation process by
          making it more data-driven and providing insights into hospitals’ performance on a
          continuous basis.60 That vision evolved to include public access to hospital performance
          reports and links between accreditation and performance measurement. While it has made
          strides in the former, linking accreditation to performance measurement has been more
          troublesome.

                  As its vision unfolded, the Joint Commission faced considerable hurdles. For some
          stakeholders, the Joint Commission was moving too fast on performance measures; for
          others, too slow. For example, its initial vision required hospitals to participate voluntarily
          in its own data system, called the Indicator Measurement System (IMS), until 1996, when
          participation would become mandatory. The hospital industry resisted the IMS, finding it
          expensive and burdensome.61 Concerns about the science of performance measurement
          and risk adjustment, considered by many to be still in its infancy, also plagued the Joint
          Commission’s implementation. Many hospitals had already invested in other competing
          performance measurement systems. The Joint Commission’s commitment to making
          hospital performance data public also rankled.

                   Thus, while the Joint Commission has maintained its vision of a performance-based
          accreditation system, it has proceeded at a much slower pace and with more flexibility
          than it initially sought. For example, it no longer requires hospitals to participate in the
          IMS. Instead, the Joint Commission offers two programs: Oryx and Oryx+. Oryx
          reflects the minimum requirement for accredited hospitals, which are required to choose a
          performance measurement system from a list of approved systems, of which IMS is one
          option.62 Hospitals wishing to do more than the minimum participate in Oryx+, which is
          an accelerated version of Oryx that requires participating hospitals to use the same 10
          performance measures. Oryx supports comparisons only to individual hospitals’ own
          performance over time, whereas Oryx+ allows comparisons across participating hospitals.

                 With the exception of the hospitals participating in Oryx+, this approach left the
          Joint Commission a long way from its earlier vision of uniform data from all hospitals. In
          the words of one stakeholder, Oryx is akin to saying “you have to wear a school uniform


Hospital Quality: The Role of Accreditation         27                                      OEI-01-97-00051
          but may choose it yourself.” To advance its vision toward uniform data, the Joint
          Commission began collecting and evaluating potential “core performance measures” in late
          1998.63 Considered the next phase of the Oryx initiative, the Joint Commission aims to
          choose five or six areas (such as diabetes or breast cancer) to focus on by the end of 1999.


                 How this new phase of the Oryx initiative will unfold is unknown, but it has
          already caused considerable backlash. Seventeen State hospital associations wrote to the
          Joint Commission in January 1999 to voice their concerns about the core performance
          measures.64 They raised many of the same concerns raised in 1995 when the Joint
          Commission introduced the IMS, including the costs, burdens to hospitals, and timing of
          implementation.65

                  In addition to its Oryx initiatives, the Joint Commission recently joined forces with
          the American Medical Association and the National Committee for Quality Assurance to
          create the Performance Measurement Coordinating Council. The Council aims to develop
          standards for performance measurement with an eye toward more consistency.66




Hospital Quality: The Role of Accreditation        28                                     OEI-01-97-00051
                                              CONCLUSION

                  Unquestionably, the Joint Commission is the central force in the external review of
          hospital quality. It accredits about 80 percent of the hospitals in the country and, for
          Medicare purposes, it has a congressionally granted deeming status that is unique among
          accrediting bodies. Medicare beneficiaries and others who rely upon hospital services
          have much at stake in how and how well the Joint Commission does its job.

                  Our review underscores that the core element of the Joint Commission’s approach
          to accreditation is the announced, on-site survey of hospitals--a survey that is heavily
          oriented toward educational and performance improvement objectives. The other
          elements of external review--unannounced surveys, responses to complaints and serious
          incidents, and standardized performance measures--play relatively minor roles in the Joint
          Commission’s accreditation process.

                  Given the significance of the Joint Commission’s role and its emphasis on one
          approach to external quality review, our inquiry surfaces important policy questions for
          HCFA: How can it best ensure an appropriate balance in external quality reviews of
          hospitals? How can it best hold the Joint Commission accountable for the important
          public role it performs while enabling it, at the same time, to have enough flexibility to
          continue to advance the state-of-the-art of hospital accreditation? We address these
          questions in our summary report, A Call for Greater Accountability. That report also
          contains our recommendations, which we direct to HCFA.




Hospital Quality: The Role of Accreditation        29                                     OEI-01-97-00051
                                                                                         APPENDIX A



                                 Medicare Conditions of Participation
The Medicare Conditions of Participation (COP) were first published in 1966 and revised in 1986 (42 C.F.R.
482.1-482.66). On December 19, 1997, HCFA published a proposed COP for hospitals ( 62 Fed. Reg. 66,726).
On July 2, 1999, it published an interim final rule on patients’ rights (64 Fed. Reg. 36,070). Below are the
components of the existing COP for non-specialty hospitals from 1986, followed by the components of the new
proposed COP.

                Existing COP                                            Proposed COP
Subpart A- General Provisions                        Subpart A- General Provisions

Provision of emergency services by                   Patient Rights (issued as an interim final rule on July 7,
         nonparticipating hospitals                  1999)

Subpart B- Administration                            Subpart B- Patient Care Activities

Compliance with Federal, State, and local laws       Patient Admissions, assessment, and plan of care

Governing Body                                       Patient care

                                                     Quality assessment and performance improvement

Subpart C- Basic Hospital Functions                  Diagnostic and therapeutic services or 

                                                              rehabilitation services
Quality assurance
                                   Pharmaceutical services
Medical staff
                                       Nutritional services
Nursing services
                                    Surgical and anesthesia services
Medical record services
                             Emergency services
Pharmaceutical services
                             Discharge Planning
Radiologic services

Laboratory services
                                 Subpart C- Organizational Environment
Food and dietetic services

Utilization review
                                  Administration of organizational environment

Physical environment
                                Infection control

Infection control
                                   Human resources

                                                     Physical environment

Subpart D- Optional Hospital Services                Life safety from fire

                                                     Blood and blood products transfusions

Surgical services                                    Potentially infectious blood and blood products

Anesthesia services                                  Utilization review

Nuclear medicine services
Outpatient services
Emergency services
Rehabilitation services
Respiratory care services




Hospital Quality: The Role of Accreditation           30                                            OEI-01-97-00051
                                                                                   APPENDIX B


                                              Methodology

                     We collected information presented in this report from the following sources:

The HCFA

                   We obtained dates of certification surveys from HCFA’s Online Survey
          Certification and Reporting System (OSCAR). The HCFA authorizes States to update
          and maintain this database with survey information. We extracted survey data pertaining
          to the frequency of certification surveys. We subsequently verified the accuracy of our
          extraction by comparing it to on-line OSCAR system information to ensure the dates we
          used corresponded to routine certification surveys, rather than complaint investigations or
          other types of surveys. We are satisfied that our information is as accurate as HCFA’s
          OSCAR system.

                 Additionally, we selected 4 States (California, Kansas, Minnesota, and Texas) that
          contain over 50 nonaccredited hospitals and represented different geographic regions of
          the United States. We then examined the OSCAR data for those States in greater detail.
          We verified the operational status of the nonaccredited hospitals in those States that had
          not been surveyed in over 5 years using the American Hospital Association’s 1997
          Hospital Guide.

                  We also interviewed staff and managers at each HCFA regional office and the
          central office. We reviewed a variety of HCFA documents, including budget call letters,
          reinvention materials, and reports to Congress, among others.

The State Survey and Certification Agencies

                   In August 1997, we mailed a pretested survey to the hospital certification agencies
          in the 50 States and the District of Columbia. The response rate for this survey was 100
          percent. The State survey addressed four areas of hospital quality oversight: private
          accreditation of hospitals, Medicare certification of hospitals, HCFA oversight of State
          certification agencies, and State licensure of hospitals. We interviewed State officials on
          the telephone or in person as well.

Accrediting Organizations

                 We interviewed officials from both the Joint Commission on Accreditation of
          Healthcare Organizations and the American Osteopathic Association. We also reviewed


Hospital Quality: The Role of Accreditation          31                                    OEI-01-97-00051
                                                                               APPENDIX B


          documents such as mission statements, accreditation manuals, policies, and hospital survey
          files. We requested and received aggregate data from the Joint Commission reflecting its
          recent hospital survey activity. All Joint Commission data are presented as reported by
          the Joint Commission, unless otherwise noted. For purposes of this inquiry, we focused
          our analysis on the Joint Commission.

Survey Observations

                  Based on schedules of upcoming triennial surveys, we identified nine hospitals in
          which to observe triennial Joint Commission surveys. Of those, we were able to observe
          seven. In two cases, the hospitals declined the Joint Commission’s request that we be
          allowed to observe. The 7 hospitals varied in size from 80 to 775 beds, represented both
          teaching and community hospitals, and were located in different areas of the country (both
          rural and urban). We also observed one random unannounced Joint Commission survey.
          Although we observed different teams of surveyors, the survey agenda, lines of inquiry,
          and tone were consistent across the surveys, which were conducted in accordance with
          Joint Commission policy, based on review of survey manuals and interviews with
          representatives of the Joint Commission. Finally, we observed a certification survey and
          parts of two complaint investigations performed by State surveyors under HCFA’s
          auspices.

Stakeholder Interviews

                 We interviewed representatives of organizations we considered to be stakeholders
          in hospital oversight. These stakeholder organizations included a union, professional
          organizations, hospital associations, and consumer groups.

Other Documents

                  In addition to the documents referenced above, we reviewed statutory and
          regulatory language and a variety of articles from newspapers, journals, magazines, and
          newsletters.




Hospital Quality: The Role of Accreditation       32                                    OEI-01-97-00051
                                                                                APPENDIX C



                          Sample Accreditation Survey Agenda


                  We took the following sample agenda from the Joint Commission’s web page
          (http://www.jcaho.org/acr_info ). This agenda is representative of the agendas surveyors
          followed when we observed accreditation surveys.

          Sample Generic Survey Agenda: Three-Day Survey/Three Surveyors

          In most instances, the survey team is composed of an administrator, nurse, and physician.
          In smaller hospitals, the survey team includes two surveyors, usually a nurse and a
          physician.

Day One:
     All Surveyors:
     8:30-8:45 am Opening Conference
     8:45-9:15 am Performance Improvement Overview Presentation
     9:15-11:00 am Document Review Session
     11:00-11:45 am Leadership Interview
     11:45-12:15 pm Lunch

          Physician Surveyor:
          12:30-2:00 pm Patient Care Setting Visit (Includes inpatient units and other sites where

          care is provided, including ambulatory settings and anesthetizing locations.)

          2:00-3:00 pm Anesthetizing Location Visit (Includes inpatient units and other sites where

          care is provided, including ambulatory settings and anesthetizing locations.)

          3:00-4:00 pm Emergency Services Visit 


          Nurse Surveyor:
          12:30-2:00 pm Patient Care Setting Visit (Includes inpatient units and other sites where

          care is provided, including ambulatory settings and anesthetizing locations.)

          2:00-3:00 pm Anesthetizing Location Visit (Includes inpatient units and other site where

          care is provided, including ambulatory settings and anesthetizing locations.)

          3:00-4:00 pm Patient Care Setting Visit (Includes inpatient units and other sites where

          care is provided, including ambulatory settings and anesthetizing locations.)


          Administrator Surveyor:
          12:30-1:15 pm Rehabilitation Services Visit



Hospital Quality: The Role of Accreditation       33                                    OEI-01-97-00051
                                                                                 APPENDIX C



          1:15-4:00 pm Building Tour (Includes visits to admitting, kitchen, resource center,
          storage, central supply, and laundry, if applicable.)

          All Surveyors:
          4:00-4:30 pm Survey Team Meeting

Day Two:
     All Surveyors:
     8:15-8:45 am Daily Briefing

          Physician Surveyor:
          8:45-9:45 am Pathology and Clinical Laboratory Services Visit (Includes survey of blood

          and blood components.) 

          9:45-10:45 am Medical Staff Credentials Interview 

          10:45-11:45 am Medical Staff Leadership Interview 

          11:45 am-12:45 pm Lunch: Medical Staff Conference (Optional) 


          Nurse Surveyor:
          8:45-10:00 am Patient Care Setting Visit (Includes inpatient units and other sites where

          care is provided, including ambulatory settings, and anesthetizing locations.)

          10:00-10:45 am Patient Care Setting Visit (Includes inpatient units and other sites where

          care is provided, including ambulatory settings, and anesthetizing locations.) 

          10:45-11:30 am Infection Control Interview 

          11:30 am-12:15 pm Nursing Leadership Interview 


          Administrator Surveyor:
          8:45-9:30 am Patient Care Setting Visit (Includes inpatient units and other sites where 

          care is provided, including ambulatory settings, and anesthetizing locations.) 

          9:30-10:15 am Hospital Department Directors Interview 

          10:15 am-12:15 pm Review of Environment of Care Documents 


          Nurse and Administrator Surveyors:
          12:15-12:45 pm Lunch

          Administrator Surveyor :
          1:00-1:45 pm Chief Executive Officer/Strategic Planning and Resource Allocation

          Interview (Includes Ethics Interview issues.)

          1:45-2:15 pm Pharmacy Services Visit 



Hospital Quality: The Role of Accreditation        34                                    OEI-01-97-00051
                                                                                APPENDIX C



          Physician and Nurse Surveyors:
          1:00-2:00 pm Medical Record Interview

          Physician Surveyor:
          2:00-2:45 pm Patient Care Setting Visit (Includes inpatient units and other sites where
          care is provided, including ambulatory settings, and anesthetizing locations.)
          2:45-4:00 pm Imaging Services Interview

          Nurse and Administrator Surveyors:
          3:00-4:00 pm Human Resources Interview

          All Surveyors:
          4:00-4:30 pm Survey Team Meeting

Day Three:

          All Surveyors: 

          8:15-8:45 am Daily Briefing 

          8:45-9:45 am Patient Care Interview 


          Physician Surveyor:
          9:45-10:30 am Performance Improvement Team Interview

          Nurse Surveyor:
          9:45-10:30 am Performance Improvement Team Interview

          Administrator Surveyor:
          10:00-11:00 am Information Management Interview

          All Surveyors:
          10:30-11:30 pm Performance Improvement Coordinating Group Interview 

          11:30-12:00 pm Lunch 

          12:00-3:00 pm Team Meeting to Integrate Survey Findings 

          3:15-4:15 pm Leadership Exit Conference 





Hospital Quality: The Role of Accreditation       35                                    OEI-01-97-00051
                                                                                  APPENDIX D


                      Advertising Hospital Accreditation Status

                  During the course of our inquiry, we saw a range of advertisements extolling
          hospital’s accreditation status.1 We saw advertisements in newspapers, magazines, fund-
          raising materials, yellowpages, and on billboards and the Internet. We also saw a banner
          strung prominently outside a hospital. Most touted the hospital’s achievement of
          accreditation with commendation. For example, one advertisement from a web page
          included the following:

                     Accreditation is the way hospitals are judged. Commendation is how they are
                     judged superior...We’re proud to be recognized as one of the best hospitals...in
                     the country...Our accreditation with commendation puts [us] in the upper 10% of
                     all hospitals surveyed in the past 3 years.

          Another ad, this one from a magazine, pitched a hospital chain and its accreditation as
          follows:

                     As for quality, the Joint Commission on the Accreditation of Healthcare
                     organizations, an independent group that reviews staffing, safety and patient care
                     at hospitals around the country, recognizes [our] hospitals with its highest
                     ratings: Accreditation with Commendation, at a rate three times the national
                     average.

          Yet another, from a newspaper noted:

                     Accreditation with Commendation. It’s the highest level of achievement awarded
                     by the Joint Commission on the Accreditation of Healthcare Organizations. And
                     a distinction earned by only 4 percent of hospitals nationwide.




          1
        The Joint Commission issues guidelines on how hospitals can characterize their
accreditation status in such ads and considers false or misleading advertising of accreditation as
grounds for denying accreditation (Joint Commission on Accreditation of Healthcare
Organizations, Comprehensive Accreditation Manual for Hospitals, 1997, p AC-18).

Hospital Quality: The Role of Accreditation          36                                    OEI-01-97-00051
                                                                            APPENDIX E



                                              Endnotes

1. Troyen A. Brennan et al, “Incidence of Adverse Events and Negligence in Hospitalized
Patients,” The New England Journal of Medicine 324 (February 7, 1991) 6: 370-376.

2. The 17.7 percent refers to adverse events considered by the authors to be serious. The authors
defined adverse events as “situations in which an inappropriate decision was made when, at the
time, an appropriate alternative could have been chosen” and serious as ranging from “temporary
disability to death.” See Lori B. Andrews et al, “An Alternative Strategy for Studying Adverse
Events in Medical Care,” The Lancet 349 (February 1, 1997)309-313.

        See also Lucian L. Leape, “Error in Medicine,” Journal of the American Medical
Association 272 (December 21, 1994) 23: 1851-1857; David C. Classes et al, “Adverse Drug
Events in Hospitalized Patients,” Journal of the American Medical Association 277 (January
22/29, 1997) 4: 301-306; Mark R. Chassin et al, “The Urgent Need to Improve Health Care
Quality: Institute of Medicine National Roundtable on Health Care Quality,” Journal of the
American Medical Association 280 (September 16, 1998) 11: 1000-1005; David W. Bates et
al,“Effect of Computerized Physician Order Entry and a Team Intervention on Prevention of
Serious Medication Errors,” Journal of the American Medical Association 280 (October 21,
1998) 1311-1316; Robert A. Raschke et al, “A Computer Alert System to prevent Injury from
Adverse Drug Events: Development and Evaluation in a Community Teaching Hospital,” Journal
of the American Medical Association 280 (October 21, 1998) 1317-1320; and David C. Classen,
“Clinical Decision Support Systems to Improve Clinical Practice and Quality of Care,” Journal of
the American Medical Association 280 (October 21, 1998) 1360-1361.

3. One example is a November 1998 New York Times article under the headline: “Death in
Surgery Reveals Troubled Practice and Lax Hospital.” The article described a “botched”
operation on a young woman by a surgeon who was on probation by the State medical board and
who used unauthorized medical equipment brought in to the operating room by a medical supply
salesman. Such incidents can happen even in the best of hospitals, but they underscore the point
that hospitals can be dangerous places and that oversight systems can be lax. See also
“Overdoses Still Weigh heavily at Dana Farber,” The Boston Globe (26 December 1995); “Florida
Doctor Sanctioned in New Amputation,” The Boston Globe (19 July 1995); “Two Surgeons
Surrender Licenses After Mistakenly Removing Kidney,” The Boston Globe (6 June 1996); “How
Can We Save the Next Victim?” New York Times Magazine (15 June 1997); “Another Hospital
Death Probed,” The Boston Globe (26 July 1997); “Patient Dies After Drinking Poison Left on
Nightstand,” San Diego Union-Tribune (6 March 1998); ”Man Arrested for Posing as Doctor for
4 years,” posted at the CNN interactive webpage (16 May 1998); “Deadly Restraint: Patients
Suffer in a System Without Oversight,” The Hartford Courant (13 October 1998).

Hospital Quality: The Role of Accreditation      37                                 OEI-01-97-00051
                                                                                  APPENDIX E



4. http://WWW.hcfa.gov/Medicare/Medicare.htm

5. Ibid.

6. Ibid.

7. P.L. 89-97.

8. The HCFA published its proposed hospital conditions of participation on December 19, 1997
(62 Fed. Reg. 66,726). On July 2, 1999, it published an interim final rule concerning patients’
rights (64 Fed. Reg. 36070).

9. Social Security Act, sec. 1865, 42 U.S.C 1395bb.

10. Health Care Financing Administration, OSCAR 10 Report, as of May 30, 1998.

11. Michael S. Hamm, The Fundamentals of Accreditation (Washington, D.C.: American Society
of Association Executives, 1997) 3.

12. Ibid.

13. Nonaccredited hospitals can go through the Medicare certification process for free.

14. Although we conducted some interviews with staff from the American Osteopathic
Association, another hospital accrediting body, we decided to exclude it from our inquiry. Our
decision was based on our own time and resource constraints. We may examine accreditation
through the American Osteopathic Association in a future inspection.

15. In some cases, the surveyors will identify a type of record (e.g., a patient with recent restraint
orders or a personnel file of a respiratory therapist) or will request that a particular staff person’s
personnel file be pulled.

16. The building tour and document review sessions take longer. The unscheduled time built into
the structure is generally in 15-minute blocks. We observed surveyors often use that time for
telephone calls, further document review, or as a buffer in case other sessions ran over.

17. Indeed, even the likely focus of the surveys or surveyors is available to those hospitals looking
for it. For example, hospitals can purchase individual surveyor profiles through an internet site or
visit chat rooms to exchange details on recent surveys. One surveyor told us he casually
mentioned liking chocolate chip cookies at one hospital, and was thereafter inundated with them-­
an occurrence he attributed to these web sites and chat rooms. Hospitals can also subscribe to

Hospital Quality: The Role of Accreditation       38                                      OEI-01-97-00051
                                                                               APPENDIX E



newsletters that track the latest trends and focus of Joint Commission surveys.

18. Surveyor notes to the Joint Commission found in the Joint Commission files.

19. The Joint Commission changed its standards as part of their “Agenda for Change”, an
initiative calling for a more performance-based accreditation process which was unveiled in 1986.

20. Dennis O’Leary, “ President’s Column: On Becoming Ten,” Joint Commission Perspectives,
16 (May/June 1996) 3: 2-3.

21. “The accreditation process itself is fundamentally a risk-reduction exercise. We don’t
warrant outcomes or that nothing bad will ever happen. We’d be crazy to do that because you
can never take the level of risk down to zero” (Dennis O’Leary, quoted in Setting Standards for
Hospitals: An Interview with Dennis O’Leary in The Long Term View 3 (4) 23).

22. In 1995, the Joint Commission launched an experiment in a more continuous accreditation
process, called the Orion Project. Operating in four States (Arizona, Pennsylvania, Georgia, and
Tennessee), the Orion Project involves partial surveys conducted quarterly by the same surveyors
for participating hospitals.

23. In early 1997, the Executive Committee of the Board of Commissioners approved an interim
cap on the scores of three standards related to restraints.

24. Data as reported by the Joint Commission.

25. The most frequently cited deficiencies are often identified in newsletters such as “Inside the
Joint Commission” and “Joint Commission Perspectives.”

26. http://jcaho.org.

27. Continuous Quality Improvement is a method of performance improvement involving a
continuous loop of performance measurement, intervention, and remeasurement. It aims to
improve the majority rather than marginal performers. D. E. Berwick, “Continuous Quality
Improvement as an Ideal in Health Care,” New England Journal of Medicine 320 (January 5,
1989) 1: 53-56; The Institute of Medicine, Medicare: A Strategy for Quality Assurance
(Washington, D.C.: National Academy Press, 1990).

28. Joint Commission on Accreditation of Healthcare Organizations, “Understanding the 1997
Hospital Performance Report,” 4.



Hospital Quality: The Role of Accreditation      39                                     OEI-01-97-00051
                                                                                APPENDIX E



29. In response to the unexpected deaths, the Joint Commission conducted a special announced
survey lasting one day, during which the hospital presented its analysis of the cause and the
surveyor identified four deficiencies regarding assessing patients and assessing competence.

30. Joint Commission on Accreditation of Healthcare Organizations, “Understanding the 1997
Hospital Performance Report,” 10, and “1997 Performance Report,” ii.

31. According to data reported by the Joint Commission, the most commonly identified
deficiencies in credentialing between May 1995 and June 1997 were related to the inclusion of
pending or successful challenges to licensure, relinquishment of licensure, criteria for autopsies,
and primary verification of license, experience, training, and competencies.

        While we found no examples of surveyor probing to ensure that hospitals deal fully and
responsibly with marginal performers, we did observe one medical leadership session where the
physician surveyor gave a stern message about the significance of credentialing and privileging
decisions. He said that the standard that physician reviewers should use in making such decisions
about their colleagues was “The Mom Test.” “Would you feel comfortable,” he asked, “in having
the colleague care for your mother?” Someday, he warned the assembled physicians, “you will be
walking or taken through hospital doors as a patient and you will be dependent on the
conscientiousness and skill of the medical staff at that hospital. Think about it.”

32. In a 1995 Office of Inspector General report, we found that 75 percent of the hospitals in the
country never reported an adverse action to the Data Bank between September 1, 1990 and
December 31, 1993 (Office of Inspector General, Hospital Reporting to the National Practitioner
Data Bank, February 1995).

33. In December 1994, the Joint Commission began releasing accreditation information about
hospitals, on request, in the form of performance reports. These reports include the hospital’s
overall survey score from the last triennial survey, the hospital’s scores in the 45 performance
areas surveyed, comparative data on the percentage of hospitals receiving each possible score in
the 45 performance areas, and a list of the performance areas in which the hospital received
deficiencies. In November 1996, the Joint Commission waived the $30 report fee.

        As of late 1998, 13,408 performance reports for hospitals, nursing homes, and other
provider types were available, and that list keeps growing. Between late 1996 and early 1997,
requests for performance reports grew from 13 per quarter to over 2,000. Beginning in early
1998, the Joint Commission made the reports available on its website, and since then requests for
reports have tapered off, suggesting some are accessing the information directly through the
website rather than ordering reports.


Hospital Quality: The Role of Accreditation      40                                      OEI-01-97-00051
                                                                                APPENDIX E



34. The Joint Commission allows hospitals to be accredited as single entities or, if they are a part
of a multi-hospital system, to be accredited through a system survey. The multi-hospital option
includes a corporate orientation and/or a corporate summation in addition to a consecutive survey
of the system’s hospitals with the same survey team. The Joint Commission charges an extra fee
for this option. The Joint Commission also offers network accreditation, so hospitals that are part
of a particular health care network could also be surveyed under the auspices of a network
survey--in addition to their own hospital survey. The Joint Commission could award a different
accreditation status to the hospital than to the network, making it difficult for consumers to
discern the meaning of each.

35. Some Joint Commission scoring guidelines are based on algorithms

36. The levels of accreditation are: accreditation with commendation, accreditation without type
1 recommendations, accreditation with type 1 recommendations, conditional accreditation, and
preliminary nonaccreditation. Preliminary nonaccreditation is generally considered to be a
temporary status.

        From June 1995 through May 1998, the Joint Commission awarded accreditation with
commendation to hospitals surveyed as a part of a hospital system much more often (22 percent)
as hospitals surveyed as single entities (13 percent). Achieving any accreditation level qualifies a
hospital to participate in Medicare. By contrast, the National Committee for Quality Assurance,
which accredits health plans, has used four accreditation levels. Eleven percent of plans met its
lowest, or provisional level, and 11 percent were denied accreditation. Unlike Joint Commission
hospital accreditation, Congress has not deemed the National Committee for Quality Assurance
(NCQA) accreditation for purposes of participating in Medicare. We extracted the data on
NCQA accreditation from its web page, “NCQA Accreditation Status List: A Fact Sheet”
(http://www.ncqa.org).

37. When the Joint Commission identifies a Type 1 recommendation in a hospital, that hospital
must either submit a written progress report and/or be subject to a focused survey. Written
progress reports far exceed focused surveys as a form of follow-up: between June 1995 and May
1998, the Joint Commission called for 3,264 written progress reports and 417 focused surveys.
Between June 1995 and May 1997, the Joint Commission rejected about 2 percent of written
progress reports for triennial surveys and required an additional follow-up, usually an on-site
survey, for those hospitals. Of course, the Joint Commission can call for multiple written
progress reports and focused surveys from a single hospital, depending on the particular situation.
Hospitals accredited with commendation are subject to no such follow-up, but could be selected
for a random, unannounced survey.



Hospital Quality: The Role of Accreditation      41                                     OEI-01-97-00051
                                                                             APPENDIX E



38. The Joint Commission allows hospitals the opportunity to improve their scores by correcting
problems identified in the survey (also referred to as type 1 recommendations). It conducts two
kinds of follow-up to ensure the hospitals have made the appropriate corrections: written
progress reports and focused surveys.

        About a fourth of all hospitals’ scores improved on average 1 point after they addressed
their deficiencies; the others remained the same or went down. From June 1995 to May 1996,
hospital scores averaged 91 (for multi-hospital option) and 90 (for single hospital option). From
June 1996 to May 1997, hospital scores averaged 93 (for multi-hospital option) and 91 (for single
hospital option).

39. Joint Commission on Accreditation of Healthcare Organizations, 1997 Performance Report,
p. 3.

40. In addition, the Joint Commission uses written progress reports and focused surveys both to
ensure hospitals address deficiencies and as a way to monitor continued compliance. Written
progress reports and focused surveys are considered follow-up actions to Joint Commission
surveys. It also uses unannounced and unscheduled surveys to respond to concerns about patient
safety in a hospital, which are discussed in the section on “Responding to Complaints.”

41. “Raid of Hospitals Probes Overworked Doctors,” The Wall Street Journal (11 March 1998);
“Inspectors Pay Surprise Visits to 12 New York Hospitals,” The New York Times (12 May 1998).

42. State agencies do, however, give notice to hospitals prior to conducting validation and
certification surveys.

43. 42 USC 1819(g)(2).

44. David R. Morrow, “To Rate Hospitals, She Dons a Wig and Practices Her Cough,” New
York Times, Sunday, 30 March 1997.

45. Following are some illustrations of newspaper reports on serious incidents involving patient
harm: “Florida Doctor Errs Anew, Taking Toe Without Asking,” The New York Times, July 19,
1995; Lawrence K. Altman, “State Issues Scathing Report on Error at Sloan-Kettering,” The
New York Times, November 16, 1995; Richard Saltus, “Patient’s Death Leads to Change at the
Brigham,” The Boston Globe, February 16, 1996; Richard Saltus, “Two Surgeons Surrender
Licenses after Mistakenly Removing Kidney,” The Boston Globe, June 6, 1996; and “Death in
Surgery Reveals Troubled Practice and Lax Hospital,” The New York Times (15 November 1998).




Hospital Quality: The Role of Accreditation    42                                    OEI-01-97-00051
                                                                                  APPENDIX E



46. The Commission typically conducted these investigations on its own, independent of any
investigations being conducted by State and/or HCFA officials.

47. The Joint Commission refers to this as a “root-cause analysis.”

48. For articles supporting and or explaining this approach to medical errors, see Lucian L.
Leape, “Error in Medicine,” The Journal of the American Medical Association 272 (December
21, 1994) 23:1851-57; Lucian L. Leape, et al, “Systems Analysis of Adverse Drug Events,” The
Journal of the American Medical Association 274 (July 5, 1995) 1:35-43; David W. Bates,
“Incidence of Adverse Drug Events and Potential Adverse Drug Events,” The Journal of the
American Medical Association, 274 (July 5, 1995) 1:29-34; Lawrence K. Altman, “Medical
Errors Bring Calls for Change,” The New York Times, July 18, 1995; Linda O. Praeger,
“Reducing Medical Errors,” American Medical News 39 (November 4, 1996) 41; Denise Grady,
“Doctors Urged to Admit Mistakes,” The New York Times, December 9, 1997; and Lucian L.
Leape et al, “Promoting Patient Safety by Preventing Medical Error,” The Journal of the
American Medical Association 280 (October 28, 1998) 16: 1444-1447.

49. The Joint Commission’s policy calls for a hospital voluntarily to notify it of a reportable
major adverse event within 5 business days and subsequently to conduct an acceptable analysis of
the event’s cause within 30 days.

50. In this respect, the Joint Commission indicates that its approach is similar to the aviation
accident and incident reporting system of the National Transportation Safety Board. See
http://nasdac.faa.gov/safety_data/.

51. During this period, the Joint Commission has drawn on its sentinel event database to issue
four alerts with specific risk reduction strategies for hospitals. The first, issued on February 27,
1998, focused on preventing medication errors and involved the misadministration of potassium
chloride. The second, issued August 28, 1998, was on wrong-site surgery. The third and fourth
were both issued in November 1998 and dealt with preventing inpatient suicides and restraint
deaths. (See Joint Commission on Accreditation of Healthcare Organizations, Sentinel Event
Alert, February 27, 1998; August 28, 1998; November 6, 1998; and November 18, 1998.)

52. “Joint Commission Statement on the Revised Sentinel Event Policy,” February 17, 1998.

53. Further, if the public recognizes that the Joint Commission rarely changes a hospital’s
accreditation status as a result of a adverse event, the public is likely to increasingly view the Joint
Commission as being soft on hospitals at the expense of public safety. The Joint Commission
itself is aware of this danger. In a column in its own newsletter, the Joint Commission’s president
noted that while hospitals tend to regard such events as their own business, “those speaking on

Hospital Quality: The Role of Accreditation       43                                       OEI-01-97-00051
                                                                                APPENDIX E



behalf of the public see sentinel event identification and follow-up as central to the Joint
Commission’s role, and credibility, as an accrediting body.” For hospitals wary even of the
gentler Joint Commission policy toward such events, he cautioned, “[I]n the end, the Joint
Commission may be the one constructive force standing between the organization that has
experienced a sentinel event and society’s handmaidens of punishment.” He did not identify the
latter. See Dennis S. O’Leary, “President’s Column: The Sentinel Event Policy: A Work in
Progress,” Joint Commission Perspectives, November/December 1996, pp. 2-3.

54. Despite occasional newspaper articles, how aware consumers are of the Joint Commission
remains unknown (“Before You Go Into the Hospital,” Parade Magazine, 4 May 1997, 6-8).
Consumers may be more aware of their State governments or HCFA as places to file complaints.
When we asked stakeholders the extent to which they expected accreditation to play a role in
responding to complaints, their responses were mixed: about a third (34 percent) expected no or a
minor role; 18 percent, a moderate role and; nearly half (48 percent), at least a great role.

55. Reflects data as reported by the Joint Commission. However, based on our file review, the
public information interviews may be undercounted to some extent. We reviewed the Joint
Commission’s hospital files for the seven surveys we observed, of which four had public
information interviews. We found no record of the four public information interviews we
observed in the files.

56. The most recent data available from the Joint Commission indicates that surveyors conducted
31 public information interviews during the first 6 months of 1998, involving about 4 percent of
surveys conducted during that time. Five of the 31 (16 percent) resulted in type 1
recommendations.

57. In 1996, for example, it reported receiving 2,718 complaints (43 percent by mail and
57 percent by telephone), a 3.5 percent decrease from those it received in 1995. Twenty-seven
percent of the written complaints were either unrelated to an accredited hospital or unintelligible,
thus prompting no further action from the Joint Commission. But the Joint Commission tracked
30 percent of the written complaints for trends and sent 27 percent to surveyors for triennial or
focused surveys.

58. Joint Commission on Accreditation of Healthcare Organizations, March 3, 1999. The Joint
Commission also accepts complaints by electronic mail, fax, and mail.

59. In the 3-year period from June 1995 through May 1998, 17 percent of the unscheduled and
unannounced surveys resulted in a change in the hospital’s accreditation status and 50 percent
resulted in some follow-up (involving focused surveys and/or written progress reports).


Hospital Quality: The Role of Accreditation      44                                     OEI-01-97-00051
                                                                                   APPENDIX E



60. On its webpage (http://www.jcaho.org), the Joint Commission identifies the following ways
that integrating performance measures will “enhance the value of accreditation:

          C	         increase public and private sector reliance on Joint Commission accreditation,
                     thereby building support for the consensus development and use of standards and
                     performance measures, as well as reducing justification for duplicative evaluation
                     activities;
          C	         provide the Joint Commission with performance data that it can use to
                     C        monitor organization performance on a continuous basis,
                     C        help organizations identify issues that require attention, and
                     C        focus triennial surveys on areas within an organization that represent the
                              greatest potential opportunities for improvement;
          C          help identify both exemplary performance and best practices to facilitate the
                     provision of benchmarking services to health care organizations; and
          C	         facilitate refinement of the Joint Commission’s performance-based standards and
                     the analysis and understanding of the relationships between standards and
                     outcomes.”

61. Christina Kent, “‘Fix it or forget it’: The JCAHO in Crisis,” Medicine & Health (January 23,
1995).

62. The Joint Commission regularly reviews performance measurement systems, so new systems
found to meet its minimum requirements can be added to the list. The Joint Commission also can
remove approved systems. (http://www.jcaho.org/perfmeas/).

63. On March 15, 1999, the Joint Commission invited accredited institutions, physicians,
universities, consumer groups, and researchers, among others, to identify and prioritize potential
areas for it to develop core measures.

64. American Hospital Association to Joint Commission on Accreditation of Healthcare
Organizations, January 5, 1999.

65. Ibid.

66. J. Duncan Moore, Jr., “Standardizing Standards: Accrediting agencies form council to end
confusion,” Modern Healthcare (May 25, 1998); “Three for Quality,” American Medical News
(June 15-22, 1998); “Three Accreditation Groups to Collaborate on Standard Approach to
Quality Measures,” BNA’s Managed Care Reporter (May 27, 1998).



Hospital Quality: The Role of Accreditation          45                                    OEI-01-97-00051
